CERTIFICATE OF SERVICE
No. TBD
Alexander C. Baker
Petitioner(s)
v.
Clara Veseliza Baker
Respondent(s)
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
Alexander C. Baker Petition for Writ of Certiorari, by mailing three (3) true and correct copies
of the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Joseph A. Yanny
Yanny & Smith
1801 Century Park E 24th FI
Los Angeles, CA 90067
(310) 551-2966
jyanny@yannylaw.com
Counselfor Clara Veseliza Baker

Lucas ‘DeDeus

June 24, 2019
SCP Tracking: Angelucci-932 C Street, Suite B-Cover White

